                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM


1       Case Number: I09010002                                                  11         Page 1 of I



             We opened an investigation based upon an audit' that questioned costs associated with NSF
             award^.^ We found that the NSF Cost Analysis and Audit Resolution Branch is reviewing the
             questionable costs. No further action is warranted and this case is closed.




    I

    NSF OIG Form 2 (1 1/02)
